No. 20-659

 

In THE
Supreme Court of the United States

LARRY THOMPSON,

Petitioner,
v.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit

BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
10,669 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

 

Wilson-Epes Printing Co., Inc.
